Message from the Inspector General

 I am pleased to present the accomplishments of the Office of Inspector General (OIG) from October 1,
 2004, through March 31, 2005. During this reporting period, we issued two flash reports to bring
 attention to highly dangerous safety and health conditions, began penetration testing of the
 Department’s unusual Information Technology (IT) security, and concluded a number of high-profile
 audits, evaluations, assessments, and investigations, which are summarized in the body of this report.

 We issue flash reports only when we find conditions that are unsafe to the point that we believe the
 Department’s senior officials as well as the public must be immediately informed. During this
 reporting period, the report about the safety hazards at the Saginaw Hill property in Arizona and the
 report on environmental concerns of public access sites at Floyd Bennett Historic Airfield in Brooklyn,
 NY, both met the criteria for issuing flash reports. At the Saginaw Hill site, we were concerned for the
 public’s health and safety because contaminated mine waste and open mine shafts pose potential
 dangers to local residents who live in nearby homes or whose children attend an elementary school
 about one-third of a mile from the site. For our report on Floyd Bennett Field, our recommendations to
 the director of the National Park Service were outside the original scope of our audit; however, we felt
 that the public’s unrestricted access to dilapidated structures and precariously stored hazardous
 materials posed a threat that required immediate action. The Department responded immediately to
 both reports, and it has made significant progress in mitigating our concerns.

 Continually evolving technology provides numerous innovative means of storing and sharing
 information, although its dynamic nature also presents new challenges in protecting that information
 and preventing and correcting potential computer security vulnerabilities. The Federal Information
 Security Management Act (FISMA) requires that the Department maintain the integrity of its electronic
 data and be vigilant in securing that data from unauthorized internal or external access. The
 Department has made progress in its security effort and increased its IT security budget, staff, and
 procurement activities since we first began the FISMA evaluation process; however, given the
 complexities of the IT landscape and competing priorities within DOI, challenges remain. My office
 will continue to demand that the Department meet the technology and security standards that the
 American people deserve and will provide meaningful oversight activities to better inform senior
 managers and the Congress regarding the state of IT security at the Department.

 In keeping with my office’s longstanding commitment to promoting excellence, integrity, and
 efficiency, I submit this Semiannual Report on our recent activities.




                                                          Earl E. Devaney
                                                          Inspector General
                                    Table of Contents

                                        STATISTICAL HIGHLIGHTS
                                                  iii


                                            ORGANIZATION
                                                 v


                            MISSION AND TOP MANAGEMENT CHALLENGES
                                              vi



  Significant Audits, Evaluations, Assessments, and Investigations
                                     DEPARTMENT OF THE INTERIOR
                                                 1


                                     BUREAU OF LAND MANAGEMENT
                                                  5


                                    MINERALS MANAGEMENT SERVICE
                                                8


                                      BUREAU OF INDIAN AFFAIRS
                                                 9


                                           INSULAR AREAS
                                                 16


                                        NATIONAL PARK SERVICE
                                                 18


                                      OFFICE OF SURFACE MINING
                                                 20


                      OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS
                                              21


                                    U.S. FISH AND WILDLIFE SERVICE
                                                  22


                          SUMMARY OF ONGOING INVESTIGATIVE ACTIVITIES
                                             23



Semiannual Report to the Congress
                                                  i                  October 1, 2004, - March 31, 2005
                                    Table of Contents

                                            Appendixes
                          1. SUMMARY OF AUDIT AND RELATED ACTIVITIES
                        FROM OCTOBER 1, 2004, THROUGH MARCH 31, 2005
                                              25

                             2. REPORTS ISSUED OR PROCESSED DURING
                           THE 6-MONTH PERIOD ENDED MARCH 31, 2005
                                               26

                            3. MONETARY IMPACT OF AUDIT ACTIVITIES
                        FROM OCTOBER 1, 2004, THROUGH MARCH 31, 2005
                                              31

                     4. NON-FEDERAL FUNDING INCLUDED IN MONETARY IMPACT
                         OF AUDIT ACTIVITIES DURING THE 6-MONTH PERIOD
                                  THAT ENDED MARCH 31, 2005
                                               32

                                     5. AUDIT RESOLUTION ACTIVITIES
                                                   33

                    6. SUMMARY OF AUDIT REPORTS MORE THAN 6 MONTHS OLD
                               PENDING MANAGEMENT DECISIONS
                          (OCTOBER 1, 2004, THROUGH MARCH 31, 2005)
                                              36

                    7. SUMMARY OF INTERNAL AUDIT AND EVALUATION REPORTS
                    MORE THAN 6 MONTHS OLD PENDING CORRECTIVE ACTION
                         (OCTOBER 1, 2004, THROUGH MARCH 31, 2005)
                                             40

                          8. SUMMARY OF INSULAR AREAS REPORTS WITH
                       OPEN RECOMMENDATIONS MORE THAN 6 MONTHS OLD
                                             44

                       9. CROSS REFERENCES TO THE INSPECTOR GENERAL ACT
                                               45




Semiannual Report to the Congress
                                                   ii                 October 1, 2004, - March 31, 2005
Statistical Highlights



                                           Audit Activities

 REPORTS ISSUED                                                                       48

                         Internal Audits                                              36
                         Contracts and Grant Audits                                   8
                         Single Audit Quality Control Reviews                         4




                                            Audit Impacts

 TOTAL MONETARY IMPACTS                                                               $9,856,388

                         Questioned Costs (includes unsupported costs)                $5,901,471
                         Recommendations That Funds Be Put to Better Use              $3,108,264
                         Lost or Potential Additional Revenues                         $846,653


 INTERNAL AUDIT RECOMMENDATIONS MADE                                                  425
 INTERNAL AUDIT RECOMMENDATIONS RESOLVED                                              228




                                      Investigative Activities

 CASES CLOSED THIS PERIOD                                                             159
 NEW CASES OPENED                                                                     215
 HOTLINE COMPLAINTS/INQUIRIES RECEIVED                                                66




Semiannual Report to the Congress
                                                      iii                  October 1, 2004, - March 31, 2005
                                                                             Statistical Highlights



                             Criminal Investigative Results

INDICTMENTS/INFORMATION                                                      31
CONVICTIONS                                                                  25
SENTENCINGS                                                                  19
                      Jail                                                   95 months
                      Probation                                              402 months
                      Community Service                                      180 hours
                      Criminal Judgments/Restitutions                        $1,098,310
CRIMINAL MATTERS REFERRED FOR PROSECUTION                                    42
CRIMINAL MATTERS DECLINED                                                    18




                                    Civil Investigative Results

CIVIL REFERRALS                                                              2
CIVIL RECOVERIES                                                             $1,750,000
CIVIL DECLINATIONS                                                           2


                        Administrative Investigative Activities

PERSONNEL ACTIONS
                      Removals                                               3
                      Suspensions                                            9
                      Resignations                                           5
                      Separations                                            2
                      Downgrades                                             1
                      Last Chance Agreements                                 1
                      Reprimands/Counseling                                  29
                      Reassignments/Transfers                                4
                      General Policy Actions                                 5
                      Administrative Recoveries                              $10,738




Semiannual Report to the Congress
                                                   iv             October 1, 2004, - March 31, 2005
Organization Chart




Semiannual Report to the Congress
                                    v   October 1, 2004, - March 31, 2005
                                                                     Mission and Top Management Challenges


 MISSION
 The mission of the Office
 of Inspector General is to
 promote excellence,
 integrity, and
 accountability in the
 programs, operations,
 and management of the
 Department of the
 Interior.

RESPONSIBILITIES
        The Office of Inspector General (OIG) is responsible for independently and objectively identifying
risks and vulnerabilities that directly impact, or could impact, the Department of the Interior’s (DOI) ability to
accomplish its mission. We are required to keep the Secretary and the Congress fully and currently informed
about problems and deficiencies relating to the administration of departmental programs and operations.
Effective implementation of this mandate addresses the public’s demand for greater accountability and integrity
in the administration of government programs and operations and addresses the demand for programs that
work better, cost less, and get the results Americans care about most.

ACTIVITIES
        The OIG accomplishes its mission by conducting audits, evaluations, assessments, and investigations
relating to the programs and operations of DOI. Our activities are tied directly to DOI’s major responsibilities
and are designed to assist DOI in developing solutions for its most serious management and program
challenges, most notably cross-cutting or department-wide issues. These activities are also designed to ensure
that we keep critical issues prominent, which greatly influences key decision makers and increases the
likelihood that we will achieve desired outcomes and results that benefit the public.


                  DOI’S TOP MANAGEMENT CHALLENGES
   AS REPORTED IN THE DOI FY 2004 REPORT ON ACCOUNTABILITY
   Financial Management                                     Responsibility to Indians and Insular Areas
   Information Technology                                   Resource Protection and Restoration
   Health, Safety, and Emergency Management                 Revenue Collections
   Maintenance of Facilities                                Procurement, Contracts, and Grants




Semiannual Report to the Congress
                                                       vi                       October 1, 2004, - March 31, 2005
Department of the Interior

SCRUTINY OF SINGLE AUDITS IDENTIFIES DEFICIENCIES
        The Single Audit Act Amendments of 1996 (Act) requires non-federal entities that expend a total
amount of federal awards equal to or in excess of $500,000 in any fiscal year to obtain a single audit for that
year. The Office of Management and Budget (OMB) issued Circular A-133, Audits of States, Local
Governments, and Non-Profit Organizations, to set forth standards for obtaining consistency and uniformity
among federal agencies for single audits required by the Act. OMB Circular A-133, Subpart D, Section .400,
outlines the responsibilities for federal agencies identified as cognizant or oversight for non-federal entities.
One responsibility of cognizant and oversight agencies is to conduct quality control reviews of selected audits
made by non-federal auditors.

           As part of our responsibility for single audits, we recently completed 102 reviews with the following
results:
                      z	 Three auditor referrals were made to the American Institute of Certified Public
                         Accountants (AICPA) and various state boards of accountancy for substandard
                         reports.

                      z	 Eleven reviews resulted in the auditors reissuing the reports to correct deficiencies.

                      z	 Six reviews found that the auditor did not conduct sufficient tests of major
                         programs or that the level of testing did not meet federal requirements.

                      z	 Sixty-seven reviews identified errors and deficiencies in the schedule of
                         expenditures of federal awards (SEFA) and schedule of findings and questioned
                         costs.

                      z	 Fifty-two reviews found that the audit reporting package was not submitted within
                         the required 9-month time frame after the end of the audit period.

                      z	 Fifty reviews identified disagreements between financial statement components
                         and deficient or omitted financial statement disclosures.

                      z	 Forty-four reviews identified errors and inconsistencies in the Data Collection
                         Form (SF-SAC).

        In addition, the OIG completed four comprehensive Quality Control Reviews (QCRs), which all
resulted in requiring the auditors to reissue their reports to correct deficiencies.




Semiannual Report to the Congress
                                                           1
                                                           1	                      October 1, 2004, - March 31, 2005
Significant Audits, Evaluations, Assessments, and Investigations


DOI AND BUREAU FINANCIAL STATEMENTS UNQUALIFIED
DOI FINANCIAL STATEMENTS
        The independent certified public accounting firm of KPMG LLP (KPMG), under contract with the OIG,
rendered an unqualified opinion on the consolidated financial statements of DOI for fiscal year 2004.
However, KPMG also identified 4 material weaknesses and 12 critical but less significant control weaknesses
(reportable conditions). The material weaknesses, which are longstanding, are summarized below:

              CONTROLS OVER PROPERTY, PLANT, AND EQUIPMENT
              Weaknesses were reported in land rights, acquisitions, construction-in-progress, and
              leased property. For example, KPMG identified exceptions, such as not transferring costs
              in a timely manner and capitalizing costs that should have been expensed. As a result, DOI
              spent considerable time and resources analyzing and adjusting property, plant, and
              equipment balances.

              YEAR-END CLOSING
              DOI needs to improve controls over the recording and reporting of year-end transactions
              to ensure that transactions are promptly and properly recorded for timely and reliable
              financial reports. For example, KPMG reported that DOI incorrectly recorded
              approximately $390 million of cash received in September 2004 as custodial revenue
              rather than as a decrease to accounts receivable related to the Minerals Management
              Service (MMS).

              INTRA-GOVERNMENTAL RECONCILIATION
              DOI is required to reconcile transactions and balances with other federal entities in
              accordance with Office of Management and Budget (OMB) guidance. However, DOI had
              not reconciled its non-fiduciary, intra-governmental transactions and balances because it
              did not perform the reconciliations during the year and because its trading partners did not
              consistently provide information necessary to properly reconcile the transactions.

              TRUST FUND MANAGEMENT CONTROLS
              DOI procedures and controls were not adequate to ensure that Indian trust fund activities
              and balances were recorded properly or timely. For example, controls need to be improved
              in resolving differences in trust fund balances from prior periods and in special deposit
              accounts, maintaining documentation for supervised accounts, and recording probate
              orders.

BUREAU FINANCIAL STATEMENTS
       KPMG also rendered unqualified opinions on the financial statements of the National Park Service
(NPS), Bureau of Land Management (BLM), Office of Surface Mining (OSM), U.S. Fish and Wildlife Service
(FWS), Departmental Offices, Minerals Management Service (MMS), Bureau of Indian Affairs (BIA), Bureau
of Reclamation (BOR) and the U.S. Geological Survey (USGS).

Semiannual Report to the Congress
                                                       2                       October 1, 2004, - March 31, 2005
                                              Significant Audits, Evaluations, Assessments, and Investigations


COUPLE CHARGED WITH DEFRAUDING UNION TRUST FUND
AND U.S. GOVERNMENT OF MORE THAN $900,000
       Two former employees of the National Plastering Industry’s Joint Apprenticeship Trust Fund were
charged with defrauding the government of more than $900,000 and using the money for personal expenses,
including paying for a country club membership and mortgage payments.

       A federal grand jury returned a 15-count indictment against Gilbert A. Wolf, and Janice R. Hughes,
both of Davidsonville, MD, charging each defendant with six counts of bank fraud, five counts of mail fraud,
two counts of money laundering, and one count of forfeiture of property. They allegedly defrauded DOI, the
Department of Labor (DOL), and the Trust Fund of more than $917,000 in 5 years.

        Wolf was the executive director and Hughes was the office director of the Trust Fund, a non-profit
training entity governed by the Operative Plasterers’ and Cement Masons’ International Association
(OPCMIA). The Trust Fund provides pre-apprenticeship career training for disadvantaged youth at Job Corps
centers administered by DOL and DOI.

        According to the indictment, Hughes and Wolf developed a scheme in which they would write, sign,
and issue checks — or cause checks to be written, signed, and issued — to current, former, and in some
instances, fictitious vendors with whom the Trust Fund purportedly conducted business. These checks for
fictional expenses would then be deposited in a hidden account allegedly operated by the defendants.
Additionally, they deposited funds from unions belonging to the OPCMIA, their trust funds, and contractors
and employers in the form of employee benefit contributions.

       Wolf and Hughes allegedly used these stolen funds to pay for their personal expenses, including their
mortgage payments, vehicle payments, a country club membership, and payments to various personal credit
cards. Moreover, in an attempt to disguise the illegal source of the money, Hughes and Wolf laundered the
stolen money though other accounts.



SECURITY OF DOI IT SYSTEMS CONTINUES TO BE ASSESSED
        In the annual evaluation required by the Federal Information Security Management Act of 2002, we
found improvements in the security over DOI's information systems but further improvements are needed. We
noted that DOI's bureaus have not consistently followed DOI's guidance in implementing their security
programs. Weaknesses were identified in the Certification & Accreditation process for a sub set of systems,
resulting in the DOI's Office of the Chief Information Officer initiating a full quality assurance review of all
Certification & Accreditations. We also began an evaluation of DOI's Plan of Actions & Milestones and have
begun penetration testing of DOI's Internet accessible resources.




Semiannual Report to the Congress
                                                       3                        October 1, 2004, - March 31, 2005
Significant Audits, Evaluations, Assessments, and Investigations


WIRELESS TECHNOLOGIES POSE POTENTIAL SECURITY RISK
AND REQUIRE BETTER OVERALL MANAGEMENT BY DOI
        Wireless networks and associated wireless communication technology hold great promise for efficiency,
ease of use, mobility, and cost effectiveness; they also introduce increased risks to the confidentiality, integrity,
and availability to DOI’s information resources. Sensitive data can now reside on wireless devices, such as
cellular telephones, Personal Digital Assistants, and laptops.

       We found that while bureaus and offices had been using at least 700 wireless technology devices for
more than 4 years, DOI management had not developed and implemented an overall strategy to manage its
wireless capabilities. For example, all wireless network devices were not inventoried.

        During our evaluation, DOI issued a policy requiring bureaus and offices to immediately disconnect
any wireless network technology from DOI-wired networks. This may have alleviated some security concerns,
but it does not address how DOI should handle the inevitable use of wireless technology in the future.

        We made six recommendations to improve control over
wireless technologies and presented industry best practices for DOI’s
consideration. DOI officials disagreed with our findings and
recommendations, and they stated that they had implemented guidance
to control the use of wireless technologies.

        We do not agree with the Department; furthermore, we
assert that DOI’s issuance of limited guidance in fiscal years
2004 and 2005 does not constitute a well-planned
program but instead represents an insufficient
reaction to previously uncontrolled use of wireless
technology by bureaus and offices.




Semiannual Report to the Congress
                                                         4                        October 1, 2004, - March 31, 2005
Bureau of Land Management

UNRESTRICTED ACCESS ALLOWED AT SAGINAW HILL SITE
WHERE ENVIRONMENTAL AND PHYSICAL HAZARDS EXIST
       Our office discovered that the Saginaw Hill Property allowed the general public unrestricted access to
numerous hazards, including contaminated mine waste and open mine shafts. Our audit of DOI’s management
of hazardous waste sites included the Saginaw Hill Property, which is a 540-acre parcel of land located in Pima
County just outside the city of Tucson, AZ. An Indian casino, an elementary school, and new and existing
homes, are immediately adjacent to the site, and we noted that the public often visits this property.




                                                                                                       OIG PHOTO
This view from the Saginaw Hill Property shows a well-worn path leading from the school to the site.

                                                        Our inspection disclosed that there were no signs
                                                anywhere on the property prohibiting entry or warning the public
                                                of the contamination and safety hazards at the site. Fencing
                                                erected in 2003 had been compromised, allowing unrestricted
                                                access.

                                                        An assessment in 1988 by Pima County identified more
                                                than 65 safety hazards, including many open mine shafts. The
                                                report recommended that all the open mining hazards be
                                                physically identified and covered with suitable materials. During
                                                our site visit we located 18 dangerous mine shafts and
An open mine shaft                  OIG PHOTO


Semiannual Report to the Congress
                                                        5                       October 1, 2004, - March 31, 2005
                                               Significant Audits, Evaluations, Assessments, and Investigations

determined that BLM had not mitigated
many of the previously identified safety
hazards.

         Additionally, initial testing on a
water well on adjacent private land showed
unsafe levels of both lead and arsenic in
the water. BLM had concerns about the
validity of the testing methodology and
results, and it plans to conduct additional
tests on the well. BLM has known about
the contamination at the site since the late
1980s and has not yet notified the National
Response Center about the hazardous
materials, as required by the
Comprehensive Environmental Response,
Compensation and Liability Act.

        BLM has prepared a Community                                                                   OIG PHOTO
Involvement Plan to inform the local          Local residents, such as the ATV rider pictured above, frequently
community of the progress of                  visit the site, unaware of the potential hazards.
investigations at the site and to give the
community the opportunity to provide input into the selection of removal action alternatives for the site. As of
February 2005, this document had not been released to the public. During February, we discussed our findings
in an exit conference with BLM officials. On April 11, 2005, BLM issued a Federal Register Notice to inform
the public that it permanently closed 20 acres in Saginaw Hill that compromise public health and safety.
  Read full report.


ACCOUNTING TECHNICIAN AND FRIEND PLEAD GUILTY TO
STEALING COMPUTER PASSWORDS TO EMBEZZLE MONEY
      A former BLM accounting technician and her longtime friend pleaded guilty in connection with a
scheme to steal more than $600,000 from BLM.

        Michelle Braun, former BLM accounting technician, and Lori O’Brien pleaded guilty in U.S. District
Court, District of Colorado, to charges of conspiracy and theft. Additionally, Braun pleaded guilty to computer
fraud for exceeding her authorized access to make entries into the BLM Collections and Billing System
computer. She used other BLM employees’ computer passwords to cause fraudulent BLM checks to be issued
to O’Brien, her longtime high school friend.

        Braun and O’Brien are scheduled to be sentenced in June 2005.




Semiannual Report to the Congress
                                                        6                      October 1, 2004, - March 31, 2005
Significant Audits, Evaluations, Assessments, and Investigations


BLM CONTRACTOR SENTENCED FOR SUBSTITUTING SEED;
ANOTHER INDICTED FOR MAKING FALSE STATEMENTS
        One BLM contractor was
sentenced and another was indicted for
their roles in providing BLM with an
inferior type of seed as a substitution for
the seed that could help revitalize land
destroyed by forest fires.

        Boyd Goble, president of Goble
Seed Company, was sentenced to 37
months of incarceration and 24 months of
supervisory release in U.S. District Court,
District of Utah, for charges of wire fraud,
false statements, and false claims. Goble
was also ordered to pay restitution in the
amount of $758,000.
                                                                                                         NPS PHOTO
       BLM contracted with Goble for the Workers unload bags of seed at a warehouse.
delivery of nearly 155,000 pounds of
fourwing saltbush seed, collected from plants growing at higher altitudes in northern states, which is
considered vital to the successful stabilization and restoration of lands debilitated by forest fires. Goble
submitted invoices to the BLM totaling more than $3 million after deliberately substituting inferior, less
expensive seed, which would die or fail to thrive in the locations where the seed was to be planted.

       James Reneau, owner, James Reneau Seed Company, was recently indicted by a federal grand jury in
U.S. District Court, District of Colorado, for false statements in connection with his role in the scheme to
provide BLM with non-conforming fourwing saltbush seed.




Semiannual Report to the Congress
                                                        7                        October 1, 2004, - March 31, 2005
                        Minerals Management Service

VERIFICATION REVIEW FINDS THAT MMS AND BLM
IMPLEMENTED PRIOR AUDIT REPORT RECOMMENDATIONS
        As part of our ongoing strategy to make sure that
prior report recommendations were implemented as
reported to DOI, we performed two verification reviews.

        In the first review, we checked on two
recommendations contained in our August 1999 audit
report on the royalty rate reductions program for stripper
(low producing) oil wells. The 1999 report made two
recommendations to address the lack of an adequate
system to process stripper royalty rate reduction
notifications or to verify the reported royalty rates in a
timely manner.

        We determined, after interviewing program
personnel and reviewing documentation MMS submitted
to close the recommendations, that MMS actions were
sufficient to implement the recommendations.

        In the second verification review, we examined
actions to implement two of eight recommendations made
in our March 1995 audit report to correct weaknesses in
BLM’s right-of-way program. The two recommendations
called for BLM to determine its actual costs to process right-of-way applications and to develop procedures to
timely accumulate reimbursable costs on major right-of-way projects.

        We found that BLM performed a study and proposed changes to its cost recovery procedures in new
right-of-way regulations and issued procedures for expeditiously tracking the reimbursable costs on right-of-
way projects. We believe that the changes are appropriate and will result in BLM increasing the fees for
granting rights-of-ways.

Read full MMS report.         Read full BLM report.




Semiannual Report to the Congress
                                                       8                      October 1, 2004, - March 31, 2005
  Bureau of Indian Affairs
TRIBAL LEADER, TEXAS STATE REP, CASINO MANAGER,
AND OTHERS INDICTED FOR TRYING TO STEAL $1 MILLION
        Seven individuals were indicted by a federal grand jury in the U.S. District Court, Western District of
Texas, in connection with a scheme to steal nearly $1 million in tribal funds.

         Those indicted include Raul Garza, Sr., former Kickapoo tribal leader; Isidro Garza, Jr., tribal gaming
representative; Martha Garza, Isidro Garza, Jr.’s wife; Texas State Representative Timoteo Garza, Isidro Garza,
Jr.’s son; Arthur Lee Martin, former Kickapoo casino manager; Isidro Xavier Garza, Isidro Garza, Jr.’s son; and
Jose J. Ruiz, former tribal attorney. They were charged with embezzlement of tribal and casino funds and
conspiracy to commit theft for a scheme intended to steal more than $900,000.

       Allegedly, Isidro Garza, Jr., manipulated casino
operating accounts for personal benefit and used the casino’s
American Express corporate credit card to fund approximately
$40,000 in campaign expenses during his 2000 election bid for the
U.S. House of Representatives.

       Raul Garza, Sr., is accused of stealing more than
$1,700 from the Kickapoo Community Health Services,
withdrawing more than $213,000 from the casino cash
cage, and using casino corporate credit cards to
purchase two All Terrain Vehicles (ATVs) and $58,000
worth of furniture and household appliances for both of his
houses — one in the United States and one in Mexico.

        Additionally, Isidro Garza, Jr.; Raul Garza, Sr.; and Ruiz allegedly devised a scheme to transfer a
$311,000 loan from an insurance company intended for casino improvements. The defendants allegedly
transferred the loan money from the casino’s checking account into Ruiz’ law office escrow account to be used
as they saw fit.

        Raul Garza, Sr.; Isidro Garza, Jr.; Martha Garza; and Martin were also charged with conspiring to
violate civil rights for oppressing, threatening, and intimidating members of the Kickapoo Traditional Tribe of
Texas in the free exercise and legal right to petition the Tribal Counsel. Members of the tribe wanted to hold a
recall election to remove Raul Garza, Sr., and other members of the Tribal Counsel from office. Allegedly, the
defendants interfered with meetings of the tribal election committee and threatened to withhold those loans that
they provided to individual members unless that member would sign an affidavit to have his or her name
removed from the recall petition.

       This investigation is part of a multi-agency task force.


Semiannual Report to the Congress
                                                        9                       October 1, 2004, - March 31, 2005
Significant Audits, Evaluations, Assessments, and Investigations


MEMBER OF SKULL VALLEY BAND OF GOSHUTES PLEADS
GUILTY TO LESSER FELONY CHARGE IN FRAUD CASE
       A member of the Skull Valley Band of Goshutes pleaded guilty to a lesser charge of misusing tribal
funds in exchange for assisting the government attorneys against the other defendants in the case.

        Tribal member Sammy Blackbear was accused of illegally accessing tribal accounts. He and Goshute
tribal members Marlinda Moon, Miranda Walsh, and their attorney, Duncan Steadman, were each charged with
one count of theft from an Indian tribal organization and five counts each of bank fraud and aiding and
abetting. Blackbear’s sentencing and restitution hearing are still pending.

        The indictment accused the three Goshutes and Steadman of using a fabricated, notarized certification
of tribal election to access tribal bank accounts and open new ones. The foursome was accused of opening
new accounts and transferring nearly $385,000 from other accounts. Prosecutors also accused them of
withdrawing $250,000 from the tribe’s bank account.

       The indictment also alleged that the foursome used the document to secure a $45,800 check from Zions
Bank, which they deposited into a Wells Fargo Bank account and used for unauthorized purposes. The
indictment claimed Steadman received about $11,000 of that money.

        The indictments followed an investigation conducted jointly by our office with the U.S. Attorney’s
Office, the FBI, and the Internal Revenue Service (IRS) of alleged corruption within the Goshute Tribe.


TWO EMPLOYEES OF FORT BELKNAP INSURANCE COMPANY
PLEAD GUILTY TO EMBEZZLEMENT AND THEFT CHARGES
        Two employees of the Fort Belknap Insurance Company, including a tribe’s former Chief Executive
Officer, pleaded guilty to theft/embezzlement from an Indian Tribal Organization for personal use of an
unauthorized debit card.

        As we reported in our last Semiannual Report, we conducted an investigation of suspected
embezzlement by Gregory Morris Powderface, a contract employee and former Chief Executive Officer of the
Tribe, and Roxanne Blue Horse, the former accounting technician of the insurance company, at the request of
elected officials of the Assiniboine and Gros Ventre Tribes of the Fort Belknap Indian reservation.

       Powderface pleaded guilty to one count of theft/embezzlement from an Indian Tribal Organization and
one count of filing a false tax return. He was sentenced to 18 months incarceration and 36 months of
supervised probation, and he was ordered to pay restitution of about $68,000 to the Fort Belknap Insurance
Company.

       Blue Horse, pleaded guilty to a misdemeanor violation of theft/embezzlement from an Indian Tribal
Organization. She was sentenced to 6 months incarceration and 12 months of supervised probation, and she
was ordered to pay restitution of about $1,800 to the Fort Belknap Insurance Company.

Semiannual Report to the Congress
                                                      10                      October 1, 2004, - March 31, 2005
                                              Significant Audits, Evaluations, Assessments, and Investigations


CROW FINANCE DIRECTOR AND OTHERS CONVICTED AND
SENTENCED IN SCHEME TO HELP CHAIRMAN PAY LEGAL FEES
       Four people, including the former finance director, have pleaded guilty to charges relating to a scheme
in which they created fake contracts to steal tribal money to help pay for their former tribal chairman’s legal
bills.

        Our office conducted this investigation into allegations that Kelly Passes, former Crow Tribe Finance
Director, created fictitious contracts and inflated real contracts worth thousands of dollars and awarded them to
friends and family for the express purpose of generating money for former Crow Tribal Chairman Clifford G.
BirdinGround’s legal defense.

       As we reported in our last Semiannual Report, Kelly Passes, his brother Brenden Passes, and tribal
members Harvest White and Elliot Mountain Sheep were indicted for their roles in a kickback scheme
designed to steal money from the Crow Tribe of Indians to help Chairman BirdinGround pay for his defense
attorneys in regards to criminal corruption charges he was facing.

       Our investigation revealed that Kelly Passes created a fictitious contract for his brother and inflated the
amount of contracts awarded to White and Mountain Sheep. Since our last report, these four individuals
pleaded guilty and were sentenced as follows:

       Kelly Passes pleaded guilty to four counts of conspiracy and one count of obstruction of justice and
was sentenced to 1 year of custody for each of the five counts to be served concurrently. Passes was also
ordered to make restitution to the Crow Tribe of Indians in the amount of $57,200.

       Elliot Mountain Sheep pleaded guilty to one count of theft from an Indian tribal organization and was
sentenced to 2 years probation and was ordered to make restitution to the Crow Tribe of Indians in the amount
of $25,000.

       Brenden Passes pleaded guilty to one count of theft from an Indian tribal organization and was
sentenced to 3 years probation and was ordered to make restitution to the Crow Tribe of Indians in the amount
of $14,000.

        Harvest White pleaded guilty to one count of theft from an Indian tribal organization and was sentenced
to 2 years probation and was ordered to make restitution to the Crow Tribe of Indians in the amount of $8,200.

       Additionally, Kelly Passes admitted his role in the creation of a fictitious consulting contract awarded
to Tammy Findley, Court Clerk, Big Horn County Courthouse, Hardin, MT. Findley is the mother of Kelly
Passes’ children. She performed no work on this contract, although she negotiated two $5,000 tribal checks,
with the proceeds going to BirdinGround to pay for his defense attorney. Trial on this matter is currently
pending in the District of Montana.




Semiannual Report to the Congress
                                                        11                       October 1, 2004, - March 31, 2005
Significant Audits, Evaluations, Assessments, and Investigations


FORMER FORT SILL APACHE CONSULTANT PLEADS GUILTY
TO RESELLING DISCOUNT MEDICAL DRUGS FOR PROFIT
        A former consultant to the Fort Sill Apache Tribe (FSAT) pleaded guilty to charges relating to a plan to
illegally buy discount pharmaceuticals and resell them for profit.

        Fred Solmor and Wilbur “Bill” Swift, Jr., formerly under a consulting agreement with the FSAT to
establish a tribal pharmacy, allegedly illegally purchased pharmaceuticals at discounted federal-contract prices.
Swift and Solmor then resold the pharmaceuticals for personal profit. Swift and Solmor abused the FSAT’s
federally recognized status and its Indian Self Determination Act contracts to obtain these discounted
pharmaceuticals, which were restricted for the tribe’s internal use and not eligible for resale. The investigation
determined that Swift and Solmor approached several other federally recognized Indian tribes throughout the
United States to promote this same scheme.

       As we reported in our October 2004 Semiannual Report, Solmor and Swift were charged with interstate
                transportation of property obtained by fraud in connection with this illegal pharmaceutical
                            diversion fraud scheme. Further court action against Swift is pending.

                                       Solmor pleaded guilty in U.S. District Court, Southern District of Texas,
                               to interstate transportation of property obtained by fraud. Sentencing is
                               pending.

                                            This investigation was conducted by our office, the Food and
                                     Drug Administration, and the FBI.



THREE FORMER LOAD STAR CASINO EMPLOYEES INDICTED
FOR PAYROLL ADVANCE AND CHECK-CASHING SCHEMES
      Three former employees of Crow Creek Sioux Tribe’s casino were indicted for their roles in a payroll
advance scheme and check-cashing scheme, which netted them thousands of dollars.

        Charlene Azure, former General Manager; Vienna Gourneau, former payroll clerk; and Sylvia
Rockwood, former accounts payable clerk of the Load Star Casino, Crow Creek Sioux Tribe, were indicted by
a federal grand jury in U.S. District Court, District of South Dakota, for theft charges related to their
employment at the Load Star Casino.

       Allegedly, Azure, Gourneau, and Rockwood carried out a fraudulent payroll advance scheme through
which they obtained approximately $74,000 for their own personal use and benefit. In addition, Azure
allegedly carried out a fraudulent check-cashing scheme through which she obtained an additional amount of
approximately $33,000 for her own personal use and benefit.

       National Indian Gaming Commission investigators assisted our office in this case.

Semiannual Report to the Congress
                                                       12                       October 1, 2004, - March 31, 2005
                                             Significant Audits, Evaluations, Assessments, and Investigations


ROAD CONSTRUCTION COMPANY SETTLES CIVIL CASE

        Three engineering                                                             in completing the road
companies agreed to pay                                                               repairs.
the U.S. Government
$250,000, and incur                                                                            This agreement was
approximately $1.5                                                                     reached to resolve claims
million in expenses to                                                                 filed under the False Claims
repair a 12-mile road                                                                  Act after the companies
located on the Cheyenne                                                                used inferior base aggregate
River Indian Reservation.                                                              materials to complete a $3.5
                                                                                       million BIA road
       Engineering firm                                                                construction contract.
Aaron Swan &                                                                           Specifically, our
Associates, of Pierre, SD, will make the $250,000          investigation revealed that contractor personnel used
payment and join with Roadmakers, Inc., of Bismark,        laboratory reports to falsely reflect that base aggregate
ND, and Duininck Brothers, Inc., of Prinsburg, MN,         materials met federal contract specifications.


JUVENILE DETENTION CENTER SUPERVISOR AND
CONTRACTOR PLEAD GUILTY TO BRIBERY CHARGES
       The former supervisor and a contract employee of a juvenile detention center pleaded guilty to bribery
charges stemming from an illegal agreement to exchange inflated and fictitious invoices for cash.

       Pauline Jackson, correctional supervisor of the Fort Peck Juvenile Detention Center in Poplar, MT,
pleaded guilty to bribery. She was sentenced to 12 months incarceration and 36 months supervised probation,
and she was ordered to pay restitution to the BIA in the amount of about $7,000.

       Raymond Dolezilek, a contract employee who provided technical assistance to the Fort Peck Juvenile
Detention Center, pleaded guilty to bribery. He has not been sentenced yet.

        Our investigation revealed that Jackson, who supervised 23 employees, conspired with Dolezilek to
have him prepare and submit inflated and fictitious invoices. Jackson agreed to overpay Dolezilek in exchange
for cash kickbacks from Dolezilek on the fraudulent invoices.

        Our investigation identified 50 invoices submitted for payment by Dolezilek to the juvenile detention
center between October 2001 and September 2002, totaling nearly $31,000.




Semiannual Report to the Congress
                                                      13                         October 1, 2004, - March 31, 2005
Significant Audits, Evaluations, Assessments, and Investigations


FORMER NON-PROFIT COORDINATOR SENTENCED FOR
EMBEZZLING MONEY INTENDED FOR INDIAN SCHOOLS
      A former non-profit program coordinator was sentenced for embezzling money intended for Native
American public schools.

        Franklin E. Akoneto, former program coordinator, Lawton Johnson O’Malley Parent Committee, Inc.,
pleaded guilty in U.S. District Court, Western District of Oklahoma, and was sentenced to 5 months in prison
for his role in an embezzlement fraud scheme.

        Akoneto was charged with stealing funds from Lawton Johnson O’Malley Parent Committee, Inc., a
non-profit organization that provides monetary assistance to children enrolled in a Native American education
program. His scheme cost the BIA thousands of dollars intended for Native American children attending
public schools in and around Lawton, OK.

      Akoneto was also ordered by the court to spend 5 months of home confinement with electronic
monitoring and to pay nearly $36,000 in restitution to the BIA.



SCHOOL TECHNOLOGY COORDINATOR AND ACCOUNTS
PAYABLE OFFICER INDICTED FOR THEFT/EMBEZZLEMENT
      Two former employees of Marty Indian School (MIS) in South Dakota were indicted for theft and
embezzlement charges, and one has pleaded guilty.

       Richard Kazena, former MIS technology coordinator, and LaDonna Frederick, former MIS accounts
payable officer, were indicted by a federal grand jury in South Dakota for theft and embezzlement charges.

       Frederick pleaded guilty in a South Dakota federal court to one count of theft from an Indian Tribal
organization. Sentencing is scheduled for June 10, 2005. Frederick fraudulently claimed and received
approximately $7,000 in overtime pay and used MIS credit cards to obtain more than $30,000 in cash
payments, which she used to gamble.

       The indictment alleges that Kazena fraudulently claimed and received approximately $19,000 in
overtime pay. MIS is fully funded through the BIA’s Office of Indian Education Programs.




Semiannual Report to the Congress
                                                      14                      October 1, 2004, - March 31, 2005
                                            Significant Audits, Evaluations, Assessments, and Investigations


HEALTH DIRECTOR CONVICTED OF MONEY LAUNDERING
       A former Kickapoo Tribe health director was convicted of money laundering and embezzlement.

       A federal jury convicted Maricela Mendoza, former Community Health Director, Kickapoo Traditional
Tribe of Texas, for embezzling federal funds from the Kickapoo Tribe’s health care program, as well as for
money laundering. Kickapoo Community Health Services funds are used to pay for medical treatment and
medication for tribal members.

       The jury also awarded the federal government a monetary judgment against Mendoza in the amount of
$102,000. We had previously reported Mendoza’s indictment in our April 2004 Semiannual Report.



MECHANIC PLEADS GUILTY, SUSPENDED FOR 30 DAYS
FOR IMPROPER USE OF GOVERNMENT CREDIT CARD
       A BIA mechanic who pleaded guilty to improperly using his government charge card in exchange for
kickbacks has been suspended from his job.

       Monte V. Whalen, BIA maintenance mechanic, Pine Ridge Agency, Pine Ridge, SD, received a 30-day
suspension and a “Last Chance Agreement,” which places strict conditions on Whalen’s employment with BIA,
in connection with his felony guilty plea.

        We previously reported in our April 2004 Semiannual Report that Whalen, cooperating with several
others, took part in a scheme known as “Operation Card Trix.” Our investigation revealed that Whalen used a
BIA-issued charge card to purchase nearly $50,000 worth of electrical merchandise from West Lite
Corporation. Whalen admitted that he made the purchases for the BIA Facilities Branch, Pine Ridge Agency,
in exchange for kickback payments; he received a total of $2,315.




Semiannual Report to the Congress
                                                    15                      October 1, 2004, - March 31, 2005
 Insular Areas

             s
VIRGIN ISLANDS PORT AUTHORITY LACKS CONTROL OVER
PROCUREMENTS, MAY NOT USE FUNDS EFFICIENTLY
        Our audit of the Virgin
Islands Port Authority found that
the Port Authority did not have
adequate control over its
procurement function and lacked
assurance that it used funds
efficiently.

        During fiscal years 2002

                                                Port Authority Inadequacies
and 2003, the Virgin Islands Port
Authority awarded 24 construction
and/or project management
contracts for 11 capital               SPECIFICALLY, WE FOUND THAT THE PORT AUTHORITY DID NOT:
improvement projects totaling
$85.3 million. Additionally, the       Adequately document the process used to select contractors for major
Port Authority paid six professional   capital improvement projects.
service providers a total of $1.9
million over periods of up to 6        Maintain complete contract files and require that contractors submit
years and issued 2,158 purchase        all necessary documents, including evidence of liability insurance
orders totaling $3.9 million during    coverage and appropriate business licenses.
fiscal years 2002 and 2003. In
                                       Adequately plan a major construction project to minimize the need for
completing these procurements, the
                                       contract change orders totaling $13.7 million.
Port Authority did not always
comply with applicable federal and     Use required competitive negotiations for all professional services to
local procurement requirements,        ensure that the most cost-effective combination of price and quality of
resulting in inadequate control over   service was obtained.
its procurement function and a lack
of assurance that it used funds        Issue contracts for all professional services, or did not issue contracts
efficiently.                           until the majority of work had been performed and significant
                                       payments had already been made to service providers.
        The Port Authority
recognized that significant            Solicit at least two price quotations for purchases of $2,500 or less,
improvements in procurements           and did not issue contracts to vendors for purchases over $2,500, as
were needed but did not agree with     required by internal policies.
all our findings. Our findings are
accurate, and we have asked the        Deduct gross receipt taxes of $846,653 from payments to contractors
Port Authority for additional          who performed services for the Authority, as required by the Virgin
information on the status of the       Islands Code.
report’s 10 recommendations.

Semiannual Report to the Congress
                                                      16                        October 1, 2004, - March 31, 2005
Significant Audits, Evaluations, Assessments, and Investigations


FORMER DIRECTOR OF AMERICAN SAMOA GOVERNMENT’S
DEPARTMENT OF EDUCATION PLEADS GUILTY TO FRAUD
       The former director of the American Samoa Government Department of Education pleaded guilty to
conspiring to commit bribery and fraud, admitting that he accepted cash and goods in exchange for
fraudulently awarding contracts.

       Kerisiano Sili Sataua, former director of the American Samoa Government Department of Education,
pleaded guilty to one count of conspiring to commit bribery and fraud concerning federal programs. Sataua
admitted to defrauding the U.S. Territory of American Samoa and federal agencies of at least $61,000. Sataua
also admitted that he agreed to fraudulently award contracts to his co-conspirators and their companies in
exchange for cash and goods.

       This is a joint investigation with the FBI and the U.S. Department of Education’s Office of Inspector
General. Sataua was prosecuted by the Public Integrity Section of the U.S. Department of Justice, Criminal
Division.




Semiannual Report to the Congress
                                                      17                      October 1, 2004, - March 31, 2005
                                         National Park Service
NPS ADDRESSES IMMEDIATE PUBLIC SAFETY CONCERNS AT

FLOYD BENNETT FIELD HISTORIC AIRFIELD IN NEW YORK





Read full report.

                                                                                   OIG PHOTO
                    Items stored haphazardly at the air hangar at Floyd Bennett Field.
        During our audit of DOI’s management of hazardous waste sites, we discovered dangerous conditions
that are potential threats to visitors at Floyd Bennett Field, a historic airfield that is part of NPS’s Gateway
National Recreation Area. We promptly brought these hazards to the attention of management in a flash report.

        We saw that the general public had unrestricted access to two aircraft hangars on the area that were
dilapidated and presented potential safety risks. These hangars were not locked or secured in any way, and we
did not observe any signs instructing the public not to enter. Dangerous conditions included:

                                Unsafe structural conditions such as a partially
                                collapsed roof. (Pictured, left.)

                                Unsecured storage of machinery, industrial
                                equipment, chemicals, and other unlabeled and
                                unknown substances. (Pictured, right.)

                                Uncovered vertical shafts, approximately 4- to
                                5-feet deep, some of which were filled with
                    OIG PHOTO   water, in the concrete floor of both aircraft                             OIG PHOTO
Partially collapsed roof        hangers.                                            Barrels used to store chemicals

       NPS expeditiously responded to our report and informed us that corrective action had either already
been taken or was underway.

Semiannual Report to the Congress
                                                        18                         October 1, 2004, - March 31, 2005
                                              Significant Audits, Evaluations, Assessments, and Investigations


COSTS OF MAINTAINING NATIONAL PARK SERVICE
FACILITIES NOT ACCURATELY RECORDED OR REPORTED
         NPS did not accurately capture or
report its facility maintenance costs.
Consequently, NPS does not know how much
was or is being spent on facility maintenance
activities.

         Between fiscal years 2001 and 2003
NPS requested and received $341 million more
than it recorded spending for facility
maintenance activities. We also found that
there was little or no relationship between the
facility maintenance work being done and
labor costs recorded in the accounting system.
This indicated that the problem was one of
inaccurate data collection or recording rather                                                          NPS PHOTO
than nonperformance of maintenance.               A snow plow clears the road at Glacier National Park.

        We identified four specific areas where NPS needs to make significant improvements — (1) accounting
for time, (2) providing guidance to parks, (3) monitoring facility maintenance reporting, and (4) realigning the
budget requests between facility operations and facility maintenance funds. NPS concurred with the findings
and recommendations and also directed its regional directors to review all maintenance charges and ensure that
they accurately reflect the type of maintenance that was conducted.
                                                                       Read full report.


AUDIT FINDS INADEQUATE SUPPORT FOR COSTS CLAIMED
BY GATEWAY NATIONAL RECREATIONAL AREA CONTRACTOR
       An audit disclosed that an NPS contractor, The Ryan Company, Inc., submitted a claim for $3 million
more than its records support for the cost of a project.

        The Ryan Company, Inc., submitted a claim for additional costs it alleges it incurred on an NPS
contract for modifications to the utility systems at Gateway National Recreation Area. The claim was related
to the cost of installing a sewage pipe under the Rockaway Inlet in New York.

       Specifically, the Ryan Company claimed that it spent $6.6 million to complete installation of the
sewage pipe because differing site conditions and defective contract specifications caused Ryan to make
multiple attempts before it was able to successfully drill under the Rockaway Inlet and install the pipe. By
contrast, the contract included $1.6 million for this task. Our audit disclosed that Ryan could provide records
to support only $3.2 million of the $6.6 million claimed.


Semiannual Report to the Congress
                                                       19                        October 1, 2004, - March 31, 2005
                              Office of Surface Mining

COAL MINE INSPECTIONS AND BOND RELEASES COMPLETED
IN ACCORDANCE WITH LEGAL REQUIREMENTS
       OSM is responsible for reclaiming and restoring land and water degraded by mining prior to 1977,
minimizing off-site impacts during mining operations since 1977, and ensuring that land is restored to
beneficial use after mining has ceased. The Surface Mining Control and Reclamation Act (SMCRA) of 1977
grants OSM this authority.

         We evaluated the adequacy of inspection and bond release activities, potential regulatory program cost
savings, and OSM’s Government Performance and Results Act (GPRA) performance measures related to these
activities. We concluded that the processes for performing surface mining inspections and bond releases were
in compliance with SMCRA and OSM regulations for the four states we reviewed. Also, we concluded that
current OSM regulations may require excessive inspections of low-risk mining sites. OSM’s GPRA measure
on bond release acreage is not appropriate because it is not under the control of OSM managers and is output
oriented. In addition, we identified weaknesses in the GPRA data collection and verification processes.

        We made six recommendations to the OSM director to improve the mine inspection process and GPRA
reporting. All six recommendations have been resolved.


Read full report.




Semiannual Report to the Congress
                                                      20                      October 1, 2004, - March 31, 2005
                      Office of the Special Trustee
                                                           for American Indians
OPINION ON TRUST FUND FINANCES REMAINS QUALIFIED
       The independent certified public accounting firm of KPMG LLP (KPMG), under contract with the
Office of the Special Trustee for American Indians (OST), issued a qualified opinion on the Indian and Other
Trust Funds and Individual Indian Monies Trust Funds financial statements for fiscal years 2003 and 2004
managed by OST.

       According to KPMG’s report, inadequacies in certain DOI trust-related systems and processes,
disagreements with trustees on account balances, and legal claims against the U.S. Government made it
impracticable for the auditors to extend auditing procedures to determine the fairness of trust fund balances.
The report also identified material weaknesses related to OST’s reliance on processing trust transactions at BIA
and unresolved financial reporting issues from current and prior periods. KPMG also identified a reportable
condition pertaining to internal controls over information technology systems.

       This is the ninth consecutive time that the statements have been audited under OIG oversight and have
received a qualified opinion.




Semiannual Report to the Congress
                                                      21                       October 1, 2004, - March 31, 2005
                       U.S. Fish & Wildlife Service

AUDITS OF GRANTS AWARDED TO STATE AND INSULAR AREA
GOVERNMENTS FIND POTENTIAL SAVINGS OF $5.5 MILLION
        Audits of grants that the FWS awarded to four states and one insular area government for sport fish and
wildlife restoration projects revealed a potential savings of $5.5 million. The grants finance up to 100 percent
of projects sponsored by Insular Areas and 75 percent of state-sponsored projects, such as developing sites for
boating access and acquiring and managing natural habitats.

        During audits of grants in four states and one territory, we questioned the eligibility for reimbursements
of $2,468,216 and identified income of $3,059,264 from grant-supported activities. The income could be used
to defray program cost.

        A breakdown of the significant issues disclosed in the audits follows. FWS is working with the states
to resolve these matters.

        The state of New Jersey claimed ineligible costs of $548,749 primarily for labor and related indirect
costs for non-federal grant activities. The legislature appropriated $2 million from the state’s license and
permit funds for use on park improvements representing a potential diversion of $2 million. In addition,
program income of $177,576 from leases on wildlife management areas and $49,000 from the disposal of
vehicles were not reported to FWS.

        The state of Colorado claimed $384,965 for volunteer instructors that was not supported by time sheets,
and $296,027 for a transfer of funds to another state agency without any supporting documentation. The state
also did not report program income of $56,153 derived from state wildlife areas receiving federal assistance.

       The state of North Carolina overcharged FWS grants by approximately $928,000 as a result of
duplicating the fringe benefit rate for Social Security and Medicare. The state also underreported program
income of $2,825,535 on state game lands.

       The state of New Hampshire claimed $44,726 in media equipment usage charges that were
unsupported. We also found that the state had not implemented recommendations from our prior audit report
regarding the inability to reconcile its federal assistance accounting system to the state’s official accounting
system.

       The Insular Area of American Samoa claimed excess drawdowns of $19,574, and unsupported,
unnecessary, and unreasonable costs of $246,175. This included indirect costs for which the government did
not have an approved indirect cost rate.




Semiannual Report to the Congress
                                                       22                       October 1, 2004, - March 31, 2005
     Summary of Ongoing Investigative Activities

BIA SENTENCINGS
FORMER TREASURER SENTENCED                                     FORMER SCHOOL CUSTODIAN
                                                               SENTENCED
       The former treasurer of the Eagle Nest District
was sentenced for stealing money from the                                                 A former school
organization for personal use.                                                     custodian was sentenced after
                                                                                   spending government money that
         Hanna Amiotte, former treasurer, Eagle Nest                               was accidentally deposited in her
District, Oglala Sioux Tribe, Wanblee, SD, was                                     account.
sentenced in U.S. District Court, District of South
Dakota, to 2 years of probation, ordered to pay                                             Jeanette Lawrence,
restitution in the amount of $1,600, and ordered to            former custodian, Tate Topa Tribal Grant School, Fort
pay a special assessment fee of $100 for theft from an         Totten, ND, was sentenced in U.S. District Court,
Indian Tribal Organization. Amiotte stole funds from           District of North Dakota, to 2 years of probation for
the Eagle Nest District by writing district checks to          theft of government property. Lawrence was ordered
various casinos and using Eagle Nest District funds            to pay approximately $20,000 in restitution to DOL,
for her personal use.                                          to pay a special assessment fee of $100, and to
                                                               perform 100 hours of community service. Lawrence
FORMER SOCIAL SERVICES                                         was also ordered to attend a gambling addiction
DIRECTOR SENTENCED                                             evaluation program.

        Richard Thomas, former Social Services                         As reported in our last Semiannual Report,
Director, Santee Sioux Tribe of Nebraska, was                  Lawrence, who had been receiving worker’s
sentenced in U.S. District Court, District of Nebraska,        compensation since March 1998, spent more than
to 2 years of supervised probation, 80 hours                   $20,000 of federal funds, knowing that she was not
community service, and ordered to pay restitution in           entitled to it. DOL had inadvertently deposited an
the amount of approximately $5,600.                            overpayment of worker’s compensation benefits into
                                                               Lawrence’s bank account.
        As we reported in our last Semiannual Report,
Thomas pleaded guilty to charges of theft from a
program that receives federal funds and theft from an
Indian tribal organization. Thomas used a tribal credit
card for personal expenses, including making cash
withdrawals at casinos. Thomas paid the credit card
charges with checks he diverted from the Santee
Sioux Tribe. These checks included federal funds
received from the BIA through a Public Law 93-638
contract.




Semiannual Report to the Congress
                                                          23                        October 1, 2004, - March 31, 2005
Summary of Ongoing Investigative Activities


BLM GUILTY PLEA                                          BIA GUILTY PLEA

FORMER PETROLEUM ENGINEERING                                 SCHOOL INFORMATION TECHNOLOGY
TECHNICIAN PLEADS GUILTY                                     ASSISTANT PLEADS GUILTY
       A former BLM employee pleaded guilty to                       A Crow Indian School Information
making false statements related to his attempts to           Technology (IT) assistant pleaded guilty to theft after
conceal non-government work and claim overtime               using the school’s credit card to buy a big screen TV,
pay.                                                         leather recliners, and a DVD player.

        John James, former petroleum engineering                     A BIA investigation into the administration of
technician, BLM, pleaded guilty to one count of              Johnson O’Malley educational funding provided to
making false statements in the U.S. District Court of        the Lodge Grass Schools on the Crow Indian
Wyoming. James attempted to conceal his non-                 reservation revealed the misuse. Marion Not Afraid
government work from BLM by submitting false                 Calvin, IT assistant, misused the school’s credit card
Confidential Financial Disclosure Reports. James             to purchase numerous personal items including a
also submitted official Time and Attendance records          Phillips 43" big screen television, DVD player, digital
to the BLM containing false overtime claims totaling         camcorder, two leather recliners, and a Sony
approximately $4,745.                                        PlayStation Game console. A search of her home in
                                                             May 2004, revealed that many of these items were
       James was sentenced to 2 years of probation           located there. Calvin pleaded guilty to a felony theft
and was ordered to pay the full amount of the                charge. She has not been sentenced yet.
overtime claims in restitution.

NPS GUILTY PLEA                                          FWS TERMINATION

FORMER MAINTENANCE WORKER                                FORMER INFORMATION TECHNOLOGY
PLEADS GUILTY                                            SPECIALIST TERMINATED

        Todd Anthony Jeanes, former maintenance                  Mark Cantrell, former information technology
worker, Buffalo National River, NPS, pleaded guilty      specialist, FWS, was terminated from federal service
to one count of theft of government property, in the     for creating a false government identification (ID)
Western District of Arkansas, U.S. District Court.       card. Our investigation disclosed that Cantrell created
While employed with NPS, Jeanes stole and sold NPS       the false government ID card and, with the assistance
property on eBay.                                        of Randol Martinez, former FWS contractor whose
                                                         contract was not renewed, provided it to a private
      Jeanes resigned from NPS prior to the              citizen. The private citizen subsequently used the
completion of the investigation. Jeanes was released     false government ID card to obtain a federal
on bond. Further court action is pending.                government reduced lodging rate.




Semiannual Report to the Congress
                                                        24                         October 1, 2004, - March 31, 2005
                                                                                       Appendix One


SUMMARY OF AUDIT AND RELATED ACTIVITIES
FROM OCTOBER 1, 2004, THROUGH MARCH 31, 2005
                                          OTHER FEDERAL
                                          AUDITORS
                                          (With Review And
                          OIG STAFF                           OIG STAFF
                                          Processing by OIG
                                          Staff)              SINGLE AUDIT
                          INTERNAL, GRANT,
                          AND CONTRACT     CONTRACT AND       QUALITY CONTROL
                          AUDITS           GRANT AUDITS       REVIEWS         TOTAL

 REPORTS ISSUED TO

 Department/Office of
                          10              0                   0                  10
 the Secretary
 Fish and Wildlife
                          15              0                   0                  15
 and Parks

 Indian Affairs           4               0                   2                  6


 Insular Affairs          2               0                   0                  2

 Land and Minerals
                          9               0                   2                  11
 Management

 Water and Science        4               0                   0                  4


 Other Federal Agencies 0                 0                   0                  0


 TOTAL
                          44              0                   4                  48
 REPORTS ISSUED




Semiannual Report to the Congress
                                                25                   October 1, 2004, - March 31, 2005
Appendix Two


REPORTS ISSUED OR PROCESSED DURING
THE 6-MONTH PERIOD ENDED MARCH 31, 2005

This listing includes all internal reports (internal audits, advisory reports, assessments, and evaluations),
contract and grant audits, and single audit quality assurance review reports issued during the 6-month period
ended March 31, 2005. It provides report number, title, issue date, and monetary amounts identified in each
report (* Funds To Be Put To Better Use, ** Questioned Cost, *** Unsupported Cost, and **** Lost or
Potential Additional Revenues).


                                        Internal Reports
BUREAU OF INDIAN AFFAIRS

E-IN-BIA-0059-2004	          Independent Auditors’ Report on the Bureau of Indian Affairs’ Financial
                             Statements for Fiscal Years 2004 and 2003 (12/29/2004)

E-IN-BIA-0004-2005	          Management Issues Identified During the Audit of the Bureau of Indian Affairs’
                             Fiscal Years 2004 and 2003 Financial Statements (02/28/2005)

BUREAU OF LAND MANAGEMENT

C-FL-BLM-0091-2004	          Verification Report on Recommendations Considered Resolved and Implemented
                             from Audit Report No. 95-I-747 Titled “Right-of-Way Grants, Bureau of Land
                             Management” (11/12/2004)

C-IN-BLM-0062-2004	          Independent Auditors’ Report on the Bureau of Land Management’s Financial
                             Statements for Fiscal Years 2004 and 2003 (01/12/2005)

C-IN-BLM-0002-2005	          Management Issues Identified During the Audit of the Bureau of Land
                             Management’s Fiscal Years 2004 and 2003 Financial Statements (02/10/2005)

C-IN-BLM-0013-2005	          Public Safety Issues at the Saginaw Hill Property, Bureau of Land Management
                             (03/15/2005)

BUREAU OF RECLAMATION

C-IN-BOR-0063-2004	          Independent Auditors’ Report on the Bureau of Reclamation’s Financial
                             Statements for Fiscal Years 2004 and 2003 (01/31/2005)

C-IN-BOR-0003-2005	          Management Issues Identified During the Audit of the Bureau Reclamation’s
                             Fiscal Years 2004 and 2003 Financial Statements (02/11/2005)



Semiannual Report to the Congress
                                                      26	
                                                       6                       October 1, 2004, - March 31, 2005
                                                                                              Appendix Two

GEOLOGICAL SURVEY

E-IN-GSV-0057-2004          Independent Auditors’ Report on the U.S. Geological Survey’s Financial
                            Statements for Fiscal Year 2004 (11/24/2004)

E-IN-GSV-0005-2005          Management Issues Identified During the Audit of the U.S. Geological Survey’s
                            Fiscal Year 2004 Financial Statements (03/21/2005)

MINERALS MANAGEMENT SERVICE

E-IN-MMS-0055-2004          Independent Auditors’ Report on the Minerals Management Service’s Financial
                            Statements for Fiscal Years 2004 and 2003 (02/03/2005)

E-IN-MMS-0006-2005          Management Issues Identified During the Audit of the Minerals Management
                            Service’s Fiscal Years 2004 and 2003 Financial Statements (03/03/2005)

MULTI-OFFICE AUDIT

A-EV-MOA-0006-2004          Annual Evaluation of the Information Security Program of the Department of the
                            Interior (10/06/2004)

C-FL-MOA-0093-2004          Verification Report on Recommendations Considered Implemented from Audit
                            Report No. 99-I-782 Titled “Processing Notifications for the Stripper Oil Well
                            Property Royalty Rate Reduction Program, Minerals Management Service”
                            (11/03/2004)

X-IN-MOA-0054-2004          Independent Auditors’ Report on the Fiscal Year 2004 Annual Report on
                            Performance and Accountability of the U.S. Department of the Interior
                            (11/15/2004)

E-EV-MOA-0002-2005          District of Columbia Water and Sewer Authority Payments for July 1, 2004
                            through September 30, 2004 (11/30/2004)

X-IN-MOA-0002-2005          Applying Agreed-Upon Procedures for Intragovernmental Activity and Balances
                            (12/02/2004)

A-IN-MOA-0004-2004          Evaluation Report on the Department of the Interior’s Management and Security
                            of Wireless Technologies (12/06/2004)

E-EV-MOA-0010-2005          District of Columbia Water and Sewer Authority Payments for October 1, 2004
                            through December 31, 2004 (02/01/2005)

X-IN-MOA-0004-2005          Management Issues Identified During the Audit of the Department of the
                            Interior’s Fiscal Years 2004 and 2003 Financial Statements (03/14/2005)




Semiannual Report to the Congress
                                                    27                      October 1, 2004, - March 31, 2005
Appendix Two

NATIONAL PARK SERVICE

C-IN-NPS-0001-2005          Public Safety Concerns At Floyd Bennett Field, Gateway National Recreation
                            Area (11/18/2004)

E-IN-NPS-0056-2004          Independent Auditors’ Report on the National Park Service’s Financial
                            Statements for Fiscal Years 2004 and 2003 (12/10/2004)

C-IN-NPS-0013-2004          Final Audit Report The National Park Service’s Recording of Facility
                            Maintenance Expenditures (01/26/2005)

X-EV-NPS-0003-2005          National Park Service Travel Costs for Fiscal Year 2004 and First Quarter of
                            Fiscal Year 2005 (02/01/2005)

E-IN-NPS-0007-2005          Management Issues Identified During the Audit of the National Park Service’s
                            Fiscal Years 2004 and 2003 Financial Statements (03/03/2005)

E-EV-NPS-0095-2004          U.S. Park Police Compensatory Time (03/07/2005)

OFFICE OF SURFACE MINING

S-IN-OSM-0087-2003          Final Evaluation Report on State Operated Coal Regulatory Programs, Office of
                            Surface Mining Reclamation and Enforcement (10/27/2004)

C-IN-OSM-0065-2004          Independent Auditors’ Report on the Office of Surface Mining Reclamation and
                            Enforcement’s Financial Statements for Fiscal Years 2004 and 2003 (12/01/2004)

C-IN-OSM-0005-2005          Management Issues Identified During the Audit of the Office of Surface Mining
                            Reclamation and Enforcement’s Fiscal Years 2004 and 2003 Financial Statements
                            (02/11/2005)

OFFICE OF THE SECRETARY

E-IN-DMO-0058-2004          Independent Auditors’ Report on the Departmental Offices’ Financial Statements
                            for Fiscal Years 2004 and 2003 (12/06/2004)

E-IN-OSS-0008-2005          Management Issues Identified During the Audit of the Departmental Offices’
                            Fiscal Years 2004 and 2003 Financial Statements (02/24/2005)




Semiannual Report to the Congress
                                                    28                      October 1, 2004, - March 31, 2005
                                                                                              Appendix Two

OFFICE OF THE SPECIAL TRUSTEE FOR AMERICAN INDIANS

Q-IN-OST-0066-2004	         Independent Auditors’ Report on the Tribal and Other Trust Funds and Individual
                            Indian Monies Trust Funds Financial Statements for Fiscal Years 2004 and 2003
                             Managed by the Office of the Special Trustee for American Indians (11/29/2004)

Q-IN-OST-0004-2005	         Management Issues Identified During the Audit of the Office of the Special
                            Trustee for American Indians’ Fiscal Year 2004 Financial Statements
                            (01/10/2005)

U.S. FISH AND WILDLIFE SERVICE

C-IN-FWS-0064-2004	         Independent Auditors’ Report on the Fish and Wildlife Service’s Financial
                            Statements for Fiscal Years 2004 and 2003 (02/08/2005)

VIRGIN ISLANDS

V-EV-VIS-0003-2005	         Verification of Watch Quota and Jewelry Quota Data for Calendar Year 2004
                            Submitted by Firms Located in the U.S. Virgin Islands (03/11/2005)

V-IN-VIS-0001-2004	         Procurement Practices, Virgin Islands Port Authority, Government of the Virgin
                            Islands (03/28/2005) **$1,124 ***$4,236 ****$846,653



                              Contract and Grant Audits
NATIONAL PARK SERVICE

E-CX-NPS-0001-2005	         Review of Accounting Records and Internal Controls Related to Concession Fees
                            Paid by Carriages in the Park, Inc., an Acadia National Park Concessioner
                            (01/19/2005)

C-CX-NPS-0039-2004	         Costs Claimed by The Ryan Company, Inc., Under the Horizontal Directional
                            Drilling Portion of the National Park Service Contract No. 1443C4500000906
                            (02/09/2005) **$3,427,887

U.S. FISH AND WILDLIFE SERVICE

R-GR-FWS-0011-2004	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                            State of North Carolina, Division of Marine Fisheries, from July 1, 2001 through
                            June 30, 2003 (12/01/2004)




Semiannual Report to the Congress
                                                    29	
                                                     9                      October 1, 2004, - March 31, 2005
Appendix Two

R-GR-FWS-0003-2004	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                            State of Colorado, Division of Wildlife, from July1, 2001, through June 30, 2003
                            (03/08/2005) *$56,153 **$680,992

R-GR-FWS-0010-2004	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                            State of New Jersey, Department of Environmental Protection, Division of Fish
                            and Wildlife, from July 1, 2001, through June 30, 2003 (03/15/2005) *$226,576
                            **$257,315 ***$291,434

R-GR-FWS-0013-2004	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                            American Samoa Government, Department of Marine and Wildlife Resources,
                            from October 1, 2001, through September 30, 2003 (03/31/2005) **$33,473
                            ***$232,276

R-GR-FWS-0009-2004	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                            State of New Hampshire, Fish and Game Department, from July 1, 2001, through
                            June 30, 2003 (03/31/2005) ***$44,726

R-GR-FWS-0004-2004	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                            State of North Carolina, Wildlife Resources Commission, from July 1, 2001,
                            through June 30, 2003 (03/31/2005) *$2,825,535 **$928,008


                    Single Audit Quality Control Reviews
BUREAU OF INDIAN AFFAIRS

B-QC-MOA-0003-2005          Yurok Tribe, Fiscal Year Ended September 30, 2003 (11/22/2004)

B-QC-MOA-0004-2005          Quileute Tribal School, Fiscal Year Ended June 30, 2002 (03/03/2005)

BUREAU OF LAND MANAGEMENT

B-QC-MOA-0002-2005	         County of Nelson, Virginia, Fiscal Years Ending June 30, 2002 and 2001
                            (01/21/2005)

B-QC-MOA-0005-2005	         County of Richmond, Virginia, Fiscal Year Ended June 30, 2003 (03/24/2005)




Semiannual Report to the Congress
                                                    30	
                                                     0                      October 1, 2004, - March 31, 2005
                                                                                     Appendix Three


MONETARY IMPACT OF AUDIT ACTIVITIES
FROM OCTOBER 1, 2004, THROUGH MARCH 31, 2005



                           QUESTIONED          FUNDS TO BE PUT
 ACTIVITY                  COSTS*              TO BETTER USE   REVENUES          TOTAL

  Fish and Wildlife
                            $2,468,224          $3,108,264     0                  $5,576,488
  Service



  Insular Area:**
                            $5,360              0              $846,653           $852,013
    U.S. Virgin Islands



  National Park Service     $3,427,887          0              0                  $3,427,887




  TOTAL                     $5,901,471          $3,108,264     $846,653           $9,856,388




*Unsupported costs are included in questioned costs.
**Includes monetary impact of non-federal funds.




Semiannual Report to the Congress
                                                       31            October 1, 2004, - March 31, 2005
Appendix Four


NON-FEDERAL FUNDING INCLUDED IN MONETARY IMPACT
OF AUDIT ACTIVITIES DURING THE 6-MONTH PERIOD
THAT ENDED MARCH 31, 2005
V-IN-VIS-0001-2004	         “Procurement Practices, Virgin Islands Port Authority, Government of the Virgin
                            Islands,” dated March 28, 2005. The report identified $852,013 as monetary
                            impact consisting of $1,124 questioned costs, $4,236 unsupported costs, and
                            $846,653 unrealized revenues. All of the funds were Insular funds.




Semiannual Report to the Congress
                                                   32	
                                                    2                      October 1, 2004, - March 31, 2005
                                                                                           Appendix Five


AUDIT RESOLUTION ACTIVITIES
Table 1: Inspector General Audit Reports with Questioned Costs*

                                         NUMBER OF REPORTS QUESTIONED COSTS       UNSUPPORTED COSTS

 A. For which no management
 decision had been made by the
 commencement of the reporting
 period.1                                        36              $9,891,124              $693,510

 B. Which were issued during the
 reporting period.                                6              $5,896,103              $568,436


        TOTAL (A+B)                              42              $15,787,227            $1,261,946


 C. For which a management decision
 was made during the reporting period.            7              $1,692,437              $262,205

        (i) Dollar value of
        recommendations that
        were agreed to by
        management.                               2              $1,069,573                  $0

        (ii) Dollar value of
        recommendations that
        were not agreed to by
        management.                               5               $622,864               $262,205

 D. For which no management decision
 has been made by the end of the
 reporting period.                               35              $14,094,790             $999,741

 E. For which no management decision
 was made within 6 months of
 issuance.                                       33              $9,832,112              $692,910

 * Unsupported costs are included in questioned costs.

 1Beginning balance differs from October 2004 Semiannual Report ending balance by $181,188 (decrease)

 because of corrective adjustments.




Semiannual Report to the Congress
                                                      33                 October 1, 2004, - March 31, 2005
Appendix Five


AUDIT RESOLUTION ACTIVITIES
Table II: Inspector General Audit Reports
With Recommendations That Funds Be Put To Better Use
                                                                       NUMBER OF          DOLLAR
                                                                       REPORTS            VALUE

 A. For which no management decision has been made by the                   16             $65,380,412
 commencement of the reporting period.1
 B. Which were issued during the reporting period.                          3              $3,108,264


        TOTAL (A+B)                                                         19             $68,488,676


 C. For which a management decision was made during the reporting           7              $14,836,764
 period.

        (i) Dollar value of recommendations that were agreed to             5              $13,953,010
        by management.

        (ii) Dollar value of recommendations that were not                  2               $883,754
        agreed to by management.

 D. For which no management decision had been made by the end of            12             $53,651,912
 the reporting period.

 E. For which no management decision was made within 6 months of            9              $53,403,466
 issuance.


1 Beginning balance differs from October 2004 Semiannual Report ending balance by $519,400 (decrease)
because of a deletion of non-federal funds.




Semiannual Report to the Congress
                                                     34                   October 1, 2004, - March 31, 2005
                                                                                              Appendix Five


AUDIT RESOLUTION ACTIVITIES
Table III: Inspector General Audit Reports
With Lost or Potential Additional Revenues

                                                                         NUMBER OF          DOLLAR
                                                                         REPORTS            VALUE

 A. For which no management decision has been made by the                     9             $219,065,640
 commencement of the reporting period.1
 B. Which were issued during the reporting period.                            0                      $0


        TOTAL (A+B)                                                           9             $219,065,640


 C. For which a management decision was made during the reporting             1              $1,700,000
 period.

        (i) Dollar value of recommendations that were agreed to               1              $1,700,000
        by management.

        (ii) Dollar value of recommendations that were not                    0                      $0
        agreed to by management

 D. For which no management decision had been made by the end of              8             $217,365,640
 the reporting period.

 E. For which no management decision was made within 6 months of              8             $217,365,640
 issuance.

1Beginning  balance differs from April 2004 Semiannual Report ending balance by $1,700,000 (increase)
because of a corrective adjustment.




Semiannual Report to the Congress
                                                     35                     October 1, 2004, - March 31, 2005
Appendix Six


SUMMARY OF AUDIT REPORTS MORE THAN 6 MONTHS OLD
PENDING MANAGEMENT DECISIONS
OCTOBER 1, 2004 THROUGH MARCH 31, 2005
This listing includes a summary of internal, contract (except pre-awards), and grant audit reports that were
more than 6 months old on March 31, 2005, and still pending a management decision. It provides report
number, title, issue date, number of unresolved recommendations, and unresolved amount of monetary benefits
identified in the audit report.


                                        Internal Audits
BUREAU OF INDIAN AFFAIRS

W-FL-BIA-0047-2002	         School Construction Program, Bureau of Indian Affairs (02/24/2004);
                            2 Recommendations Unresolved

BUREAU OF LAND MANAGEMENT

W-IN-BLM-0009-2003           Audit of Oil and Gas Permitting Process, Bureau of Land Management
                            (02/13/2004); 1 Recommendation Unresolved

MULTI-OFFICE AUDIT

2001-I-0297                 Audit Report on the Stripper Oil Well Property Royalty Rate Reduction Program
                            (03/30/2001); 2 Recommendations Unresolved

NATIONAL PARK SERVICE

A-IN-NPS-0074-2003          Improvements Needed in Managing Information Technology System Security,
                            National Park Service (03/29/2004); 1 Recommendation Unresolved


                              Contract and Grant Audits
BUREAU OF INDIAN AFFAIRS

1994-E-0784 	               Audit Of Costs Claimed By Diversified Business Technologies Corporation,
                            Albuquerque, New Mexico (06/10/1994); 1 Recommendation, $825,170
                            Unresolved (Circumstances beyond the Bureau's control have delayed resolution
                            of the costs.)



Semiannual Report to the Congress
                                                    36	
                                                     6                      October 1, 2004, - March 31, 2005
                                                                                              Appendix Six


1994-E-0919 	               Audit Of Costs Claimed By Diversified Technologies Corporation, Albuquerque,
                            New Mexico (06/30/1994); 1 Recommendation, $247,414 Unresolved
                            (Circumstances beyond the Bureau's control have delayed resolution of the
                            costs.)

BUREAU OF LAND MANAGEMENT

C-CX-BLM-0044-2003 	        Costs Claimed by Sletten Construction of Wyoming, Inc., Under Contract No.
                            NDC000037 to Build the National Historic Trails Interpretive Center
                            (05/19/2004); 1 Recommendation, $256,526 Unresolved

BUREAU OF RECLAMATION

E-CX-BOR-0032-2004 	        Costs Billed by Veridian Corporation, Information Solutions Division, During the
                            Fiscal Years Ended September 30, 2002 and 2003, Under General Services
                            Administration Contract No. GS35F0038J, Bureau of Reclamation Delivery
                            Order No. 02PE810774 (09/16/2004); 1 Recommendation, $51,641 Unresolved

NATIONAL PARK SERVICE

2000-E-0289 	               J.C.M. Control Systems, Inc., Costs Billed During Fiscal Years 1997, 1998, and
                            1999 Under NPS Contract No. 1443CX300094906 (03/24/2000);
                            1 Recommendation, $83,125 Unresolved (Circumstances beyond the Bureau's
                            control have delayed resolution of the costs.)

2000-E-0607 	               Harrison and Palmer, Inc., Costs Billed Under National Park Service Contract
                            No. 1443CX00094906 (08/08/2000); 1 Recommendation, $52,703 Unresolved
                            (Circumstances beyond the Bureau's control have delayed resolution of the
                            costs.)

2000-E-0706 	               Southern Insulation, Inc. (09/29/2000); 1 Recommendation, $86,262 Unresolved
                            (Circumstances beyond the Bureau's control have delayed resolution of the
                            costs.)

2001-E-0035 	               Callas Contractors, Inc. (11/07/2000); 1 Recommendation, $16,425 Unresolved
                            (Circumstances beyond the Bureau's control have delayed resolution of the
                            costs.)

2001-E-0036 	               Final Costs Audit of Capitol Mechanical Construction (11/07/2000);
                            1 Recommendation, $98,194 Unresolved (Circumstances beyond the Bureau's
                            control have delayed resolution of the costs.)




Semiannual Report to the Congress
                                                   37	
                                                    7                      October 1, 2004, - March 31, 2005
Appendix Six

2001-E-0244 	               Audit of Costs Billed by EMS Consultants from May 1, 1996 through
                            June 1, 1999 (02/27/2001); 1 Recommendation, $327,330 Unresolved
                            (Circumstances beyond the Bureau's control have delayed resolution of the
                            costs.)
2001-E-0336 	               Audit of Subcontract Overhead Costs Billed By JCM Control Systems, Inc.
                            (04/23/2001); 1 Recommendation, $109,865 Unresolved (Circumstances beyond
                            the Bureau's control have delayed resolution of the costs.)

2002-E-0002 	               Community Central Energy Corporation, Amounts Billed Under National Park
                            Service Contract No. CX-4000-0-0023 from October 1, 1993 through
                            September 30, 2000 (12/19/2001); 1 Recommendation, $779,274 Unresolved

C-CX-NPS-0027-2004	         Costs Claimed by Remediation Constructors, Inc., to Construct an Access Road
                            and Parking Area at Sequoia Kings National Park in California, Contract No.
                            1443C8000010903 (07/08/2004); 2 Recommendations; $348,792 Unresolved

U.S. FISH AND WILDLIFE SERVICE

2003-E-0001 	               Costs Claimed by the U.S. Virgin Islands, Department of Planning and Natural
                            Resources, Division of Fish and Wildlife, Under Federal Aid Grants from the
                            U.S. Fish and Wildlife Service from October 1, 1996 through
                            September 30, 1998 (10/07/2002); 10 Recommendations; $212,322 Unresolved

2003-E-0022 	               Costs Claimed by the State of Missouri, Department of Conservation, Under
                            Federal Aid Grants from the U.S. Fish and Wildlife Service from July 1, 1997
                            through June 30, 1999 (06/11/2003); 8 Recommendations Unresolved

R-GR-FWS-0021-2003 	        Costs Claimed by the State of Indiana, Department of Natural Resources,
                            Under Federal Assistance Grants from the U.S. Fish and Wildlife Service From
                            July 1, 2000, Through June 30, 2002 (12/22/2003); 1 Recommendation
                            Unresolved

R-GR-FWS-0029-2003	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                            State of Washington, Department of Fish and Wildlife from July 1, 2000, through
                            June 30, 2002 (03/04/2004); 2 Recommendations Unresolved

R-GR-FWS-0030-2003 	        U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                            State of Wyoming, Game and Fish Department, From July 1, 2000, Through June
                            30, 2002 (04/22/2004); 6 Recommendations Unresolved

R-GR-FWS-0025-2003 	        U.S Fish and Wildlife Service Federal Assistance Grants Administered by the
                            State of New York, Department of Environmental Conservation, Division of Fish,
                            Wildlife and Marine Resources, From April 1, 2000, Through March 31, 2002
                            (05/06/2004); 8 Recommendations; $1,649,120 Unresolved



Semiannual Report to the Congress
                                                   38	
                                                    8                      October 1, 2004, - March 31, 2005
                                                                                              Appendix Six

R-GR-FWS-0005-2004 	        U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                            State of Vermont, Agency of Natural Resources, Department of Fish and
                            Wildlife, From July 1, 2001, Through June 30, 2003 (09/16/2004);
                            15 Recommendations; $272,039 Unresolved

U.S. GEOLOGICAL SURVEY

1993-E-0339 	               Closing Statement, TGS Technology, Inc. (12/22/1992); 1 Recommendation
                            $786,501 Unresolved




Semiannual Report to the Congress
                                                   39	
                                                    9                      October 1, 2004, - March 31, 2005
Appendix Seven


SUMMARY OF INTERNAL AUDIT AND EVALUATION REPORTS
OVER 6 MONTHS OLD PENDING CORRECTIVE ACTION
OCTOBER 1, 2004, THROUGH MARCH 31, 2005
This is a listing of internal audit and evaluation reports with management decisions more than 6 months old for
which corrective action has not been completed. It provides report number, title, issue date, and the number of
recommendations without final corrective action. These audits and evaluations continue to be monitored by
the Focus Leader for Management Control and Audit Follow-up, Assistant Secretary - Policy, Management and
Budget, for completion of corrective action.


BUREAU OF INDIAN AFFAIRS

2003-I-0055                  Evaluation of the Bureau of Indian Affairs Process to Approve Tribal Gaming
                             Revenue Allocation Plans (06/11/03) 3 Recommendations

W-FL-BIA-0047-2002           School Construction Program, Bureau of Indian Affairs (02/24/2004)
                             3 Recommendations

C-IN-BIA-0007-2003           Bureau of Indian Affairs, Office of Indian Education Programs, Central Office
                             Management of Administrative Funds (03/30/2004) 1 Recommendation

Q-IN-BIA-0098-2003           Bureau of Indian Affairs Contract With the Navajo Nation for Social Services
                             (09/30/2004) 1 Recommendation

BUREAU OF LAND MANAGEMENT

1992-I-0828 	                Onshore Geophysical Exploration Fees, Bureau of Land Management
                             (05/26/1992) 2 Recommendations

1995-I-0379 	                Follow-up of Recommendations Relating to Bureau of Land Management User
                             Charges for Mineral-Related Document Processing (01/23/1995)
                             2 Recommendations

1995-I-0747 	                Right-Of-Way Grants, Bureau of Land Management (03/31/1995)
                             6 Recommendations

1997-I-1300 	                Issuance of Mineral Patents, Bureau of Land Management and Office of the
                             Solicitor (09/30/1997) 1 Recommendation

1999-I-0808 	                Cultural Resource Management, Bureau of Land Management (09/03/1999)
                             2 Recommendations



Semiannual Report to the Congress
                                                     40	
                                                      0                       October 1, 2004, - March 31, 2005
                                                                                             Appendix Seven

2001-I-0421                 Audit of Bonding for Oil and Gas Wells on Indian Trust Lands (09/24/2001)
                            1 Recommendation

C-IN-BLM-0076-2003          Independent Auditors' Report on the Bureau of Land Management's Financial
                            Statements for Fiscal Years 2003 and 2002 (12/10/2003) 11 Recommendations

C-IN-BLM-0021-2004          Management Issues Identified During the Audit of the Bureau of Land
                            Management's Fiscal Year 2003 Financial Statements (12/30/2003)
                            2 Recommendations

W-IN-BLM-0009-2003          Audit of Oil and Gas Permitting Process, Bureau of Land Management
                            (02/13/2004) 4 Recommendations

BUREAU OF RECLAMATION

2000-I-0376                 Concessions Managed by the Bureau of Reclamation (05/08/2000)
                            1 Recommendation

2002-I-0004                 Improvements Needed in Security Management of Information Technology
                            Systems Supporting Energy and Water Operations (11/16/2001)
                            1 Recommendation

C-IN-BOR-0067-2002          Contract Administration, Denver Office, Bureau of Reclamation (09/30/2004)
                            2 Recommendations

MINERALS MANAGEMENT SERVICE

E-IN-MMS-0066-2003          Independent Auditors' Report on the Minerals Management Service's Financial
                            Statements for Fiscal Years 2003 and 2002 (12/09/2003) 5 Recommendations

MULTI-OFFICE AUDIT

2000-I-0300                 Supporting Documentation for Operators Participating in the Stripper Oil Well
                            Property Royalty Rate Reduction Program (03/27/2000) 1 Recommendation

X-IN-MOA-0080-2003          Independent Auditors' Report on the U.S. Department of the Interior's Fiscal
                            Year 2003 Annual Report on Performance and Accountability (11/28/2003)
                            39 Recommendations

C-IN-MOA-0042-2003          Fleet Management Operations U.S. Department of the Interior (02/09/2004)
                            5 Recommendations

X-IN-MOA-0043-2004          Management Issues Identified During the Audit of the Department of the
                            Interior's Fiscal Year 2003 Financial Statements (02/12/2004)
                            19 Recommendations


Semiannual Report to the Congress
                                                    41                      October 1, 2004, - March 31, 2005
Appendix Seven

C-EV-MOA-0094-2003          Department of the Interior Contracting for Temporary and Critical Staffing Needs
                            (09/30/2004) 5 Recommendations

NATIONAL PARK SERVICE

1998-I-0406                 Followup of Recommendations Concerning Utility Rates Imposed by the
                            National Park Service (04/15/1998) 5 Recommendations

2002-I-0045                 Recreational Fee Demonstration Program, National Park Service and Bureau of
                            Land Management (08/19/2002) 4 Recommendations

2003-I-0013                 Yosemite National Park's Museum Collection, National Park Service
                            (03/31/2003) 2 Recommendations

E-IN-NPS-0067-2003          Independent Auditors' Report on the National Park Service's Financial Statements
                            for Fiscal Years 2003 and 2002 (12/22/2003) 10 Recommendations

E-IN-NPS-0037-2004          Management Issues Identified During the Audit of the National Park Service's
                            Fiscal Year 2003 Financial Statements (01/07/2004) 15 Recommendations

A-IN-NPS-0074-2003          Improvements Needed in Managing Information Technology System Security,
                            National Park Service (03/29/2004) 12 Recommendations

NORTHERN MARIANA ISLANDS

2003-I-0073                 Saipan Harbor Improvement Project, Commonwealth Ports Authority,
                            Commonwealth of the Northern Mariana Islands (09/30/2003)
                            1 Recommendation

OFFICE OF THE SECRETARY

2003-I-0056                 Department of the Interior Working Capital Fund (06/16/2003)
                            2 Recommendations

E-IN-DMO-0068-2003          Independent Auditors' Report on the Departmental Offices' Financial Statements
                            for Fiscal Years 2003 and 2002 (12/19/2003) 18 Recommendations

E-IN-DMO-0034-2004          Management Issues Identified During the Audit of the Departmental Offices'
                            Fiscal Year 2003 Financial Statements (01/21/2004) 7 Recommendations

OFFICE OF SPECIAL TRUSTEE FOR AMERICAN INDIANS

1997-I-1167	                Judgment Funds Awarded to the Turtle Mountain Band of Chippewa Indians
                            (09/22/1997) 1 Recommendation



Semiannual Report to the Congress
                                                   42	
                                                    2                      October 1, 2004, - March 31, 2005
                                                                                            Appendix Seven

1997-I-1168                 Judgment Funds Awarded to the Navajo Nation (09/22/1997) 1 Recommendation

1997-I-1169                 Judgment Funds Awarded to the Papago Tribe of Arizona (09/15/1997)
                            2 Recommendations

2002-I-0027                 Independent Auditors' Report on the Office of Special Trustee for American
                            Indians Tribal and Other Trust Funds and Individual Indian Monies Trust Funds
                            Financial Statements for Fiscal Years 2001 and 2000 (04/25/2002)
                            3 Recommendations

Q-IN-OST-0075-2003          Independent Auditors' Report on the Tribal and Other Trust Funds and Individual
                            Indian Monies Trust Funds Financial Statements for Fiscal Years 2003 and 2002
                            Managed by the Office of the Special Trustee for American Indians (12/09/2003)
                            3 Recommendations

Q-IN-OST-0025-2004          Management Issues Identified During the Audit of the Office of the Special
                            Trustee for American Indians' Fiscal Year 2003 Financial Statements
                            (12/22/2003) 3 Recommendations

OFFICE OF SURFACE MINING RECLAMATION AND ENFORCEMENT

2003-I-0074 	               Review of the Abandoned Mine Land Program, Office of Surface Mining
                            Reclamation and Enforcement (09/30/2003) 1 Recommendation

C-IN-OSM-0024-2004	         Management Issues Identified During the Audit of the Office of Surface Mining
                            Reclamation and Enforcement's Fiscal Year 2003 Financial Statements
                            (12/30/2003) 3 Recommendations

U.S. FISH AND WILDLIFE SERVICE

1997-I-1305 	               Automated Law Enforcement System, U.S. Fish and Wildlife Service
                            (09/30/1997) 2 Recommendations

2000-I-0050 	               Miscellaneous Receipts, U.S. Fish and Wildlife Service (11/09/1999)
                            4 Recommendations

2003-I-0045 	               Reporting and Recovery Planning and Implementation for Endangered Species
                            (04/22/2003) 1 Recommendation

C-IN-FWS-0078-2003	         Independent Auditors' Report on the U.S. Fish and Wildlife Service's Financial
                            Statements for Fiscal Years 2003 and 2002 (12/22/2003) 8 Recommendations

C-IN-FWS-0023-2004	         Management Issues Identified During the Audit of the U.S. Fish and Wildlife
                            Service's Fiscal Year 2003 Financial Statements (12/23/2003) 1 Recommendation



Semiannual Report to the Congress
                                                    43	
                                                     3                      October 1, 2004, - March 31, 2005
Appendix Eight


SUMMARY OF INSULAR AREA REPORTS WITH
OPEN RECOMMENDATIONS MORE THAN 6 MONTHS OLD
Note: These Insular Area reports contain recommendations made specifically to Insular Area governors and
other Insular Area officials, who do not report to the Secretary and are not subject to the policy, guidance, and
administrative oversight established by the Assistant Secretary for Policy, Management, and Budget.


                                          Internal Audits

GUAM

2002-I-0016                   Bond Services, Trust Fund Activities, Guam Economic Development Authority,
                              Government of Guam (02/28/2002); 4 Recommendations, $68,018,988

VIRGIN ISLANDS

1998-I-0468                   Followup of Recommendations Relating to the Bureau of Corrections,
                              Department of Justice, Government of the Virgin Islands (05/29/1998);
                              1 Recommendation

1999-I-0365                   Followup of Recommendations Relating to Personnel Management Practices,
                              Division of Personnel, Government of the Virgin Islands (03/26/1999);
                              1 Recommendation, $8,300,000

2001-I-0107                   Administrative Functions, Legislature of the Virgin Islands, Government of the
                              Virgin Islands (12/29/2000); 8 Recommendations, $1,320,293

2002-I-0009                   Virgin Islands Housing Finance Authority, Government of the Virgin Islands
                              (12/31/2001); 1 Recommendation

2002-I-0042                   Federal Highway Grants, Department of Public Works, Government of the Virgin
                              Islands (08/30/2002); 1 Recommendation

2003-I-0002                   Public Finance Authority, Government of the Virgin Islands (11/22/2002);
                              9 Recommendations, $30,891,687

2003-I-0003                   Compliance With the Memorandum of Understanding Between the Governor of
                              the Virgin Islands and the Secretary of the Interior (01/06/2003);
                              6 Recommendations

2003-I-0067                   Emergency Service Surcharge Collections by Innovative Telephone Corporation
                              on Behalf of the Government of the Virgin Islands (09/26/2003);
                              1 Recommendation, $256,380

Semiannual Report to the Congress
                                                       44                       October 1, 2004, - March 31, 2005
                                                                                              Appendix Nine


CROSS REFERENCES TO THE INSPECTOR GENERAL ACT
INSPECTOR GENERAL ACT OF 1978, AS AMENDED                                                         PAGE

Section 4(a)(2)   Review of Legislation and Regulations                                           N/A*

Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                                  1-24

Section 5(a)(2)   Recommendations for Corrective Action With Respect to Significant               1-24
                  Problems, Abuses, and Deficiencies

Section 5(a)(3)   Significant Recommendations From Agency’s Previous Reports on                   40-44
                  Which Corrective Action Has Not Been Completed

Section 5(a)(4)   Matters Referred to Prosecutive Authorities and Resulting Convictions             iv

Section 5(a)(5)   Matters Reported to the Head of the Agency                                      N/A

Section 5(a)(6)   List of Audit Reports Issued During the Reporting Period                        25-32

Section 5(a)(7)   Summary of Significant Reports                                                  1-24

Section 5(a)(8)   Statistical Table – Questioned Costs                                             33

Section 5(a)(9)   Statistical Table – Recommendations That Funds Be Put to Better Use              34

Section 5(a)(10) Summary of Audit Reports Issued Before the Commencement of the                   36-39
                 Reporting Period for Which No Management Decision Has Been Made

Section 5(a)(11) Significant Revised Management Decisions Made During                             N/A
                 the Reporting Period

Section 5(a)(12) Significant Management Decisions With Which the                                  N/A
                 Inspector General Is in Disagreement

Section 5(a)(13) Information Described Under Section 05(b) of the Federal Financial               N/A
                 Management Improvement Act of 1996



*N/A = Not applicable this reporting period.




Semiannual Report to the Congress
                                                     45                      October 1, 2004, - March 31, 2005
